  " ""'''




            AN ASSESSMENT OF DATA

            COLLECTION FOR ALCOHOL

            DRUG ABUSE AND MENTAL

                HEALTH SERVICES





  -lit Vd




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                     JANUARY 1989
            AN ASSESSMENT OF DATA

         COLLECTION FOR ALCOHOL

           DRUG ABUSE AND MENTAL

                    HEALTH SERVICES





                        Richard P. Kusserow
                        INSPECTOR GENERAL




OAI- 02-88- 00120                             JANUARY 1989
                                   ..................
                                                ..........              ..................
                                                           ..... ....................
                                                           .................
                                                      ...........
                                                   .......                            .......
                                                                             ..... .....
                                                                  ..... .............        ...................
                                                                                    ......................
                                                          ............ ............................
                                                                                           ......
                                                                                    .............          .............
                                                                                                     ..............
                                                                                                  ......................
                                                                                                  .............
                                                                                              .................
                                                                                         ...........                     .......... ....... ...............
                                                                                                                ...................
                                                                                                                            ..............................
                                                                                                                      .......    .......................




                                                                  TABLE OF CONTENTS


                                                                                                                                                             PAGE

EXECUTIVE SUMMARY

INTRODUCTION............                                                                                               ..................................... 1



                    Backgro und 
                                                                                 ........................ ............ ...... 1

                    Issues......                                                                          ...................... 5
                    Methodology................................................................................................. 5
FINDINGS                                                                                            .................................. ........ ........... 6

                    Present Data Collection........... 


                    Data Pro blems and Concerns......... 

                    Receptivity to a National Data 
                               Set.....................................................


CONCLUSIONS.......................... 

                                  EXECUTIVE SUMMARY

PURPOSE

The purpose of this inspection was to assess the nature and extent of available data relating to
State alcohol , drug abuse , and mental health programs and to ascertain any difficulties in ob­
taining meaningful data.

BACKGROUND

This inspection was requested by the Alcohol , Drug Abuse , and Mental Health Administration
(ADAMH). It was prompted by their concern , shared by the Administration and Congress
that comparble data are not available across States to effectively answer questions about al­
cohol , drg abuse, and mental health programs nationally.

Funding for these programs has always been primarly by the State governments with a per­
centage provided by the Federal Government. Prior to 1981 , the Federal share took the form
of categorical grants with federally mandated State reponing requirements. In 1981 , these
categorical grants were consolidated into the ADMS (Alcohol , Drug Abuse, and Mental
Health Services) block grant which allowed the States to more fully determine their own
program needs and establish their own data collection systems within certain limitations.

The block grant legislation required applications from the States and annual reports with no
specified format. As a result, the type of information submitted by the States could, and even­
tually did, var. However, the 1984 ADMS amendments required the Deparment of Health
and Human Services (HS) to develop model data collection criteria and forms, in consult­
ation with appropriate national interest groups.

         the Anti-Drug Abuse Act created a new Alcohol and Drug Abuse Treatment and
In 1.986 ,
Rehabilitation (ADTR) block grant which provided additional funds to the State substance
abuse programs.

The ADAMH continues to collect a range of provider and epidemiological data on the in­
cidence and prevalence of alcohol , drug abuse , and mental health disorders on both an annual
and periodic basis. These are in the form of surveys or inventories rather than ongoing data
collection on client characteristics and the delivery of services. A number of earlier Federal
data systems which collected detailed treatment , patient, staffing, and related data prior to the
block grant program have been phased out. One that was phased out but continues to be col­
lected by some States is the Client Oriented Data Acquisition Process (CODAP) which
provided client characteristics and treatment information on all clients in federally funded
drug abuse treatment programs.
 ISSUES AND METHODOLOGY

The following issues were addressed: what data are actually being collected by the States and
professional associations; what are the problems and concerns of individuals who have a need
for and/or collect information about these programs; and how receptive are involved in­
dividuals to the establishment and use of a uniform national data set?

The inspection was conducted in three phases. During phase one , on-site visits were made to
the State drg, alcohol and mental health programs and 26 local providers in nine States , repre­
senting a cross section of the countr, to gain insights on the kinds of data essential to collect
and their uses. In phase two, telephone discussions were held with representatives of the
remaining 41 State programs to obtain their perceptions regarding present and future data col­
lection. In phase three , the copies of the data sets , data element definitions, and data reporting
procedures received from 45 State mental health programs and 48 State substance abuse
programs were collected and analyzed.


FINDINGS

Present Data Collection



Most States have extensive data collection systems, though most believe they lack key data.
Although similar elements are collected by many States, the breakdowns and definitions vary
widely from State to State.

Vinually all State programs collect individual client data and can give aggregate reports when­
ever needed. Some of the most commonly collected data elements in the substance abuse data
sets from each State include basic demographic elements such as age and sex (collected 98
percent of the time), primar drg of abuse (68 percent), and admission type (67 percent).
Five of these States continue to collect CODAP in its entirety, and many States continue to col­
lect some of the CODAP data elements in their exact format.

Similarly, the most common mental health data elements collected include age (94 percent),
sex (91 percent), race (85 percent), history of treatment (71 percent), and diagnosis (69 per­
cent).

More than two-thirds of the States believe that the collection of waiting list data would be use­
ful. However, less than one- third are presently collecting such data.

Almost all (92 percent) of the State substance abuse programs and most (75 percent) of the
State mental health programs say they can identify the specific provider recipients of block
grant funds. The State substance abuse programs can trace the block grant funds to the treat­
ment environment in 90 percent of the States, and 86 percent can trace it to the treatment
modality. Mental health programs are less likely to have these capacities: 49 percent of the
State menta health programs can identify both the treatment modality and environment receiv­
ing block grant funds.





Data Problems And Concerns

The problem most frequently mentioned concerning lack of data was the difficulty in answer­
ing questions from legislatures or other external sources at both the State and Federal levels.
Other problems were related to information needed by program administrators to manage and
evaluate their programs. This included the inability to identify the number of individuals
served and to provide information on specific areas such as intravenous drug use , relapse
homeless persons, funding sources and private sector programs.

Several problems in data collection were mentioned. The absence of uniform definitions of
data elements was cited repeatedly.

Respondents also cited difficulties in getting a statewide unduplicated count (i. e., a count that
does not show duplicative services to the same client). Support was expressed for use of a uni­
que client identifier to help provide data on relapse and to assure effective coordination of ser­
vice delivery among providers and monitoring of service outcomes. However, many cited
concerns for the client s confidentiality as an obstacle to an unduplicated count.


Receptivity To A National Data Set

Most States see value in having a uniform national data set. (85 percent of the State substance
abuse programs and 77 percent of the State mental health programs).

Over half the States feel the collection of minimum national data should be mandatory. Al­
most all say they do not like to have anything mandated. However, they also state that the
only way this could work is if all States paricipate in a uniform fashion.

Key uses of uniform national data , according to respondents , include comparsons among
States and information for outside sources such as legislatures. One State said, " We need na­
tionally comparable data to answer questions for Government, legislature and the press.
Other uses include allocation of funds, program management , reportng, research , and
program planning. Others felt the data would be useful to evaluate the effectiveness of
programs. Vinually all States want the Federal Government to pay for the collection of data;
half would be wiling to pay a share of the costs.
CONCLUSIONS

Data collected by the States , although extensive, is not comparable and currently cannot be ag­
gregated into reliable national statistics. This has proved a problem for the States, and they
are receptive to the idea of a trly minimum    national data set.

The following key issues in data collection need to be resolved before a decision could be
made to proceed with a national minimum data set. Those issues include: the worth of a na­
tional minimum data set to the Federal Government, how and to what extent such a data col­
lection should be federally funded , whether it should be voluntar or mandatory, how
consensus on data elements and definitions should be reached, and how best to utilize the data
once it is collected.


COMMENTS ON THE DRAFT REPORT

The report was shared with the Assistant Secretar for Health and the Alcohol , Drug Abuse
and Mental Health Administration , which includes the National Institute on Alcohol Abuse
and Alcoholism , the National Institute of Drug Abuse, and the National Institute of Mental
Health. The report was favorably received by these entities and no changes were recom­
mended.
                                      INTRODUCTION



PURPOSE

The purpose of this inspection was to assess the nature and extent of available data relating to
State alcohol , drug abuse, and mental health programs and to ascertain any difficulties in ob­
taining meaningful data.


BACKGROUND

Origin of Study

This inspection was requested by the Alcohol , Drug Abuse , and Mental Health Administration
(ADAMHA). It was prompted by their concern , shared by the Administration and Congress.
that comparable data are not available across States to be able to effectively answer questions
about the alcohol , drug abuse, and mental health programs nationally.

Legislative History

To understand these concerns, it is helpful to review the legislative background of the alcohol
drg abuse, and menta health programs. Funding for these programs has always been primari­
ly by the State governments with a percentage provided by the Federal Government. Pror to
1981 , the Federal share took the form of categorical grants with the primar administrative
responsibilities located at the Federal level and with federally mandated State reportng re­
quirements. In 1981 , these categorical grants were consolidated into the Alcohol, Drug
Abuse, and Mental Health Services (ADMS) block grant with primar aaministrative respon­
sijJility being shifted to the States. This change allowed States to more fully determine their
own program needs, set priorities, allocate funds, and establish their own data collection sys­
tems within certin limitations.


The block grant legislation required applications from the States containing descriptions of in­
tended uses for the funds. It also required annual reports, with no specified format. As a
result, the type of information that each State would submit could and eventually did var.
The legislation also required compliance reviews to be performed by the Federal Government
in several States each year.



States were also required to establish criteria to evaluate the effective perfomlance of local
providers receiving ADMS block grant funds. The results were to be used by the State to
guide internal management of block grant activities. However, there was no requirement to
provide these evaluations to the Federal Government. The Federal agencies were nevertheless
required to provide reports to the Congress on block grants.
The 1984 ADMS amendments required the Department of Health and Human Services (HHS)
to develop model data collection criteria and forms , in consultation with appropriate national
interest groups. The goal was to obtain national- level data on services provided , the number
and types of clients served , and total funding (information on how ADAMHA has imple­
mented this is on page 3- 4 of this report).

In 1986, the Anti- Drug Abuse Act created a new Alcohol and Drug Abuse Treatment and
Rehabilitation (ADTR) block grant which provided additional funds to the States as an emer­
gency enhancement to their substance abuse programs. It also allowed the Federal Govern­
ment to conduct data collection activities and specified that up to 1 percent of the total amount
appropriated could be used to evaluate alcohol and drug abuse treatment programs.

However, this data collection authority was tempered by the Paperwork Reduction Act. The
act precluded the Secretar from imposing burdensome requirements and from prescribing the
manner of compliance for application or description of the uses of funds.

Another block grant was established in 1987 to provide services to homeless individuals who
are chronically mentally ill.

Funding

The ADMS block grant funds for Fiscal Year (FY) 1985 amounted to $490 000, 000 and were
reduced to $468, 930, 000 in FY 1986. The FY 1987 ADMS grant was $508, 860, 000; an addi­
tional $162 855, 000 was added by the ADTR block grant for a total of$671 715, QOO. The
average block grant share of the total State FY 1987 funds was 18 percent, with a high of 68
percent and a low of 1. 6 percent.

HHS Data Collection Policy

The Deparent s policy on evaluating block grants provides for the collection of descriptive
information necessar for Federal policy development. However, any information to be col­
lected must be readily available or be easily collected or compiled by the States.

Types of Data

There are several important types of data collected relating to alcohol , drug abuse , and mental
health programs. Among the most important types of data collected are the following:

Client Data 
 is information maintained on an individual who receives services from a provider.
This information is used to determine the amount of service rendered to individuals, and to
classify these individuals by such categories as sex , age , type of problem and type of treat­
ment. This, in turn , assists decision-makers , managers and researchers in answering questions
about patient populations , showing differential use of services among patient groups, and fur­
nishing descriptive information about providers.
Provider data 
 is collected from providers to identify the location , scope, characteristics, and
activities of providers of alcohol , drg abuse,. and mental health services. This is used to gain
a picture of the kinds of services available within a particular geographic area. Some of this
data is derived by aggregating individual client data for each provider.

Financial data 
           determines the cost of services provided.

Event data 
       shows who receives what , from whom , at what cost , and with what effect.

Human resources data 
   is maintained on all individuals who provide services to clients or sup­
port the administrative strcture of the organization. This can give numbers employed , dis­
trbution , demographics, training, and employment characteristics of staff to address issues
such as recruitment , standards compliance , discrimination in employment , and shortage areas.

Epidemiological data 
is used to determine the incidence and prevalence of alcohol ,        drg
abuse , and mental health disorders in a given population.


ADAMHA Data Collection 
               Activities

The ADAMHA collects a range of provider and epidemiological data on both an annual and
periodic basis. These are in the form of surveys or inventories rather than ongoing data collec­
tion on client characteristics and the delivery of services.

The National Drug and Alcohol Treatment Utilzation Survey              (NDATUS) , originally con­
ducted in 1974 by NIDA , has been conducted periodically. This is provider data collected to
identify the location , scope, and characteristics of drg abuse and alcoholism treatment and
prevention units and activities throughout the nation in both public and private sector
providers.

A number of systems which collected detailed data on treatment , patients , staffng, and related
matters prior to the block grant program have been phased out. These include the National Al­
coholism Profie Information System (NAPIS), the State Alcoholism Profile Information Sys­
tem (SAPIS), and the Client Oriented Data Acquisition Process (cODAP). Prior to the block
grants, cODAP--a client data collection instrumentuwas required of all treatment clinics
receiving Federal funds. It provided client characteristics and treatment information on all
clients admitted to and discharged from federally funded drug abuse treatment programs.

The ADAMHA and the Institutes -- the National Institute of Mental Health (NIMH), the Na­
tional Institute on Alcohol Abuse and Alcoholism (NIAAA), and the National Institute of Drug
Abuse (NIDA) -- have taken the following actions in response to the 1984 amendments which
required HHS to cooperate with special interest groups to develop data collection criteria and
forms:
             The Mental Health Statistics Improvement Program (MHSIP), a cooperative
             Federal/State program designed to upgrade mental health data collection
             activities, has been active for over 12 years as a joint effort in the development of
             suggested client , event , and human resources data eleme :1ts. However , its system
             has not been implemented in any formal way.

             Under a contract from the NIMH , the National Association of State Mental Health
             Program Directors (NASMHPD) have developed a methodology for compiling
             comparable data on State mental health agency allocations and expenditure of
             funds as well as sources of revenue for mental health operations. Originally
             supported by NIMH , it is now conducted by NASMHPD without Federal support.

             The NIM , in collaboration with NASMHPD , is proposing to implement a State
             mental health data profie system in FY 1989. It wil contain information on the
             organization , funding, operation , and services provided through State mental
             health agencies. A feasibilty study was completed in 1987.

            Both NIAAA and NIDA have established a cooperative relationship with and
            provided funds to the National Association of State Alcohol and Drug Abuse
            Directors (N ASADAD) for the collection and analysis of data voluntarily
            submitted by the States on alcohol and drug abuse funding and services. Existing
            sources of information are utilized for this reporting which is known as the State
            Alcohol and Drug Abuse Profile (SADAP). The data are not verified by either
            HHS or NASADAD , and States are not required to collect them in any uniform
            way.


Key Data Collection Issues

When contemplating data collection , a number of issues arse which must be considered. Data
can be collected on individual activities on a regular basis (monthly, quarerly, or annually) or
in the form of special studies or surveys done either periodically or one time only using sam­
pling techniques. Individual data (which is data collected on each individual client in the
facilty) can be aggregated or combined in reports to provide specific information. In other
cases only aggregate data can be collected.

When collecting individual client data two important issues arise. The first involves the dif­
ficulty of achieving an unduplicated count. Clients may be counted more than once if they are
discharged and readmitted either to that or another facility. If an unduplicated count cannot be
assured, the data collected can exaggerate the size of the treatment need in a given area and/or
the number of people in treatment.

A second important issue in the collection of individual client data is the importance of con­
fidentiality. Many clients are reluctant to provide information on their mental health and sub­
stance abuse treatment. In addition , many States have laws prohibiting the release of any in­
formation about these clients. Although this data is of crucial planning importance for those
who run treatment programs, it is also importnt to those providing the data that no data be
traceable to an individual client.


INSPECTION ISSUES

             What data are actually being collected by the States and professional associations?

             What are the problems and concerns of individuals who have a need for and/or
             collect information about these programs?

            How receptive are involved individuals to the establishment and use of a uniform
             national data set?





METHODOLOGY

This inspection was conducted in three phases. Initially, on-site visits were made to the State
drg, alcohol , and mental health programs in nine States representing a cross section of the
countr. Discussions were held to determine the kinds of data presently being collected and
their uses. Insights were also obtained regarding the kinds of data considered essential to col­
lect.

Additionally, visits were made in each of the nine States to three local- level providers: one
each for alcohol , drg, and community mental health programs. They included six social
detoxification , three medical detoxification , four methadone maintenance , and three drug- free
programs in the substance abuse area. The mental health program visits included four subur­
ban , five urban , and one rural community mental health centers. The facilities ranged in
patient load from 14 to 20, 000 clients. Discussions with providers gave grass roots percep­
tions as to the strengths and weaknesses of the States ' data collection systems as well as in­
sights into the providers ' data collection needs and practices.

The second phase consisted of telephone discussions with representatives of the alcohol , drug
abuse , and mental health programs of the remaining 41 States and the District of Columbia to
obtain perceptions regarding their present data collection procedures and their ideas about a
national data collection system.

The third phase consisted of collecting copies of the data sets, data element definitions and
data reporting procedures presently in use by each of the 50 States and the District of Colum­
bia. This information was analyzed for both varations and commonalities in the elements,
definitions, and reporting procedures.
                                          FINDINGS


PRESENT DATA COLLECTION

The data analysis in this first section and all graphs and charts derived from it are based on the
client data sets received from 45 State mental health programs and 48 State substance abuse
programs. We chose to analyze the client data sets because client data is the most generally
collected data type and because client data is used by State program administrators and
providers to generate reports which wil provide information on patients, providers and ser-
VIces.

State Data Sets Usually Include Individual Client Data

Most States have extensive data collection systems, but most believe that they lack key data.
Although similar elements are collected by many States , the breakdowns and definitions vary
widely from State to S ate.

Virtually all State programs collect individual client data from providers, though they collect it
in different ways. It is usually on a State- prepared form which is submitted on a monthly
basis, and produce aggregate reports upon request. Funding does sometimes limit the number
of reports which can be generated. Four State mental health programs and four State sub­
stance abuse programs collect only aggregate data. Additionally, some mental health
programs collect individual data only at the institutional level and collect aggregate data from
their other programs. Two of the eight programs that collect aggregate data only are in large
States with populations of about 10 milion; the other six are in medium to small States with
populations ranging from 750, 000 to 5 millon. At least two State programs do not have a
data collection instrment for use at the State level. These States provide the county or area
offices with a list of key data elements that must be available upon request. The offices can
then use any data collection instruments they choose and can collect any desired additional
data.

In addition to this regular data collection , most States produce special reports or surveys on
topics of paricular interest. Some examples of these include a report of the estimated number
of problem drnkers , a sex offender report, a statistical prospective on drg abuse treatment
and a report on re-arest following residential treatment for repeat offender drunken drivers.

Figure I contains the most commonly collected individual client data elements found in the
substance abuse data sets from each State. As can be seen below , the elements range from
basic demographic information such as age and sex (collected 98 percent of the time) to the
primar drg of abuse (68 percent) and admission type (67 percent).
                             FIGURE I
          MOST COMMON SUBSTANCE ABUSE ELEMENTS COLLECTED
               DATA ELEMENTS


                               SEX

                          AGE1B
                             RACE

                    ADMISSION DATE

                      EMPLOYMENT

                  REFFERAL SOURCE

                        EDUCATION

                   FACILITY NUMBER

                    MARITAL STATUS

                        CLIENT ID 


                     PRIMARY DRUG

                    ADMISSION TYPE



                                                                        100   110

                                         0/ OF STATES COLLECTING DATA




Similarly, the most common mental health data elements collected are shown in figure II
below. They include basic demographic elements such as age (94 percent), sex (91 percent),
and race (85 percent). Also included are history of treatment (71 percent) and diagnosis (69
percent).


                              FIGURE II
            MOST COMMON MENTAL HEALTH ELEMENTS COLLECTED
               DATA ELEMENTS


                           AGE/ODB

                               SEX

                    ADMISSION DATE


                              RACE

              HISTORY OF TREATMENT

                         DIAGNOSIS

                        EDUCATION

                    MARITAL STATUS

                       EMPLOYMENT

               COUNTY OF RESIDENCE

                   FACILITY NUMBER

                   FEDERAL SOURCE




                                                                        100 110
                                        % OF STATES COLLECTING DATA
Further analysis of figures I and II reveals that substance abuse programs are morefrequently
collecting uniform data elements than mental health programs. The average percentage of
States which report collecting these common data elements is 81 for substance abuse
programs and 73 for mental health programs.

Although the national collection of cODAP was discontinued in 1981 , five States continue to
collect it. Many States continue to collect some of the CODAP data elements in the exact
CODAP format. These include sex (84 percent of all States), education (66 percent), and in­
formation on other drugs (48 percent).


                            FIGURE II
   SUBSTANCE ABUSE DATA ELEMENTS COLLECTED IDENTICAL TO CODAP
                DATA ELEMENTS



                                 SEX


                           EDUCATION



                   OTHER DRUG USED


                       PRIMARY DRUG



                      ARREST RECORD


                     AGE OF FIRST USE


                HISTORY OF TREATMENT



                                        '0 20 30 40 50 60 70 80 90 100       110

                                           0/ OF STATES IDENTICAL TO CODAP




State Data Elements and Definitions Val)

Although most States collect basic demographic information, the breakdowns and definitions
var widely           from State to State. For example, race is broken down in at least 10 different
ways. Some States have five categories, others six categories, etc. Even States that define the
elements in the same          number  of categories do not necessarly delineate them into identical
categories. For example , while one State breaks down race into " white, black , American In­
dian , other " another uses " black , white , Asian , other " (see figure IV).
                                                             FIGURE IV
                                                       SUBSTANCE ABUSE DATA:
                           VARIA TIONS                  OF      STATE PROGRAMS IN REPORTING RACE



                                                                                                100R MORE (10%)
                                              8(4".)




                                                                                                       NOT COLLECTED (6%)


                                   7 (16".)
                                                                                                       3(4%)




                                                       6(18%)
                                                                                      5(12".)

                                                   # OF CATEGORIES OF RACE USED



Employment status is defined in at least nine different ways. Some States have four
categories , others have six categories, etc. A number of States do not collect employment
 status. As with race and other types of data , the States that define the elements in the same
number of categories do not necessarly define them identically. For example, while one State
breaks employment status into " full time, part time , ared forces, homemaker, retired, inmate
of an institution , other " another uses " works 35 hours or more in competitive job market
works 35 hours or less in competitive job market , works 35 hours or more in a noncompetitive
job market (such as sheltered workshop or protective environment), works 35 hours or less in
an noncompetitive job market, unemployed, not in labor force , unknown " (see figure V).

                                                             FIGURE V
                                                        MENTAL HEALTH DATA:
         VARIATIONS              OF       STATE PROGRAMS IN REPORTING EMPLOYMENT STATUS




                      10 OR MORE (20"-'




                                          917%)




                                                       819%)




                                                                #I OF CATEGORIES OF
                                                          EMPLOYMENT STATUS USED
Data elements which we analyzed from the State individual client data sets were often col­
lected in vared ways among States. Even sex and age were collected in different ways.

Because the States collect information in different formats, the State data cannot be accurately
aggregated into national data. Thus, although almost all States may be collecting the same
data elements (such as those discussed above) their data collection efforts cannot be used to
make reliable national projections or enable States to compare their programs with those of
other States.


Data Sets Often Lack Elements Considered Important

Some data elements considered to be important by State substance abuse and mental health
professionals are collected by less than half of the States. Figures VI and VII show some data
elements considered to be important by State substance abuse and mental health professionals
which are not collected by many States.


                            FIGURE VI
       SUBSTANCE ABUSE ELEMENTS NOT CONSISTENTLY COLLECTED
                  ALTHOUGH CONSIDERED IMPORTANT
                 DATA ELEMENTS


                            DIAGNOSIS


                         DWI ARRESTS



                      SEVERITY OF USE



               TREATIlNT ENVIRONMENT



                      ROUTE OF ADMIN.



                  TREATMENT MODALITY



                   TREATMENT HISTORY




                                        10 20 30 40 50                   70 BO 90 100 110
                                           0' -r: C"TATC"C" 1"1"1   I CI"TI..I- nATA


Only 38 percent of States collect route of administration (how the drug is taken). Profes­
sionals consider this crucial data needed to properly deal with the growing AIDS crisis. The
collection of accurate data about the route of administration of the drgs used by those in treat­
ment helps to provide trend information on IV drg users. Only 30 percent of the States col­
lect data on the severity of use , while 36 percent collect treatment environment (see figure VI
above).
                                                                                   , "




                              FIGURE VII
          MENTAL HEALTH ELEMENTS NOT CONSISTENTLY COLLECTED
                   ALTHOUGH CONSIDERED IMPORTANT
                   DATA ELEMENTS




                   PRESENTING PROBLEM



                   LEVEL OF FUNCTIONING



                TREATMENT ENVIRONMENT



                        VETERAN STATUS



                   TREATMENT MODAUTY



                        ADMISSION TYPE




                                          10 20 30 40 50 60 70 80 90 100 110
                                              % OF STATES COLLECTING DATA




Some elements considered to be important by State mental health professionals are presently
collected by less than one-third of the States. Only 13 percent of the States collect data on the
presenting problem at the client s time of admission (the reason the client comes to the
facility). The client s level of functioning at admission is collected by 18 percent of the States.
Twenty-nine percent of the States keep information on the treatment environment for each
client (see figure VII above).

The most common reasons given by State program admnistrators for not collecting these data
were lack of funds and lag time between identifying data needs and data collection form up­
dates.

Most States Believe the Collection of Waiting List Data Would Be Useful

More than two-thirds of the States believe that the collection of waiting list data would be use­
ful , though less than one-third are presently collecting such data. Most States consider it im­
portnt that all providers define a waiting list uniformly. One provider said its waiting list
stared after the patient completed the intake process , was deemed appropriate , and given an
appointment. Others had waiting lists comprised of anyone who called. One methadone main­
tenance center kept the names of everyone who called , but expected the person to periodically
call back , since this showed real interest. One State program administrator said the problem
is no generally accepted definition of a waiting list.

Sixty-one percent of the providers visited maintain waiting lists for at least some of their ser­
vices. For some services mandated by the courts a waiting list is essential because the client
must prove he/she is on a waiting list for treatment in order to avoid incarceration.
                                                                , "




The most frequently mentioned uses of a waiting list are to document the need for services
and to make funding decisions. One State representative said It is definitely a valuable tool
at the State level to help justify additional appropriations and identify unmet needs.

Others not in favor of waiting lists said these individuals might request services at one mo­
ment and, if they are put off, not be interested when the services are available. They con­
sidered it important to treat the patients or refer them elsewhere.


Almost All States are Able to Identify Providers Receiving Block Grant Funds.

Almost all (92 percent) of the State substance abuse programs and most (75 percent) of the
State mental health programs say they can identify the specific provider recipients of block
grant funds. The State substance abuse programs can trace the block grant funds to the treat­
ment environment in 90 percent of the States, and 86 percent can trace it to the treatment
modality. Thirty-nine percent can identify the client receiving the funds. Mental health
programs are less likely to have these capacities: 49 percent of the State mental health
programs can identify both the treatment modality and environment receiving block grant
funds. Only 16 percent can identify the actual clients.


Forty-two percent of the providers visited can separate data by funding source. Of these
providers , 40 percent can identify ADMS clients and 30 percent can identify ADTR clients.


DATA PROBLEMS AND CONCERNS


State Program Administrators and Providers Experience a Variety of Problems Due to Lack
of Data

The problem most frequently mentioned was the difficulty in answering questions from legis­
latures or other external sources at both the State and Federal levels. Many State program ad­
ministrators also mentioned their inability to compare their State activities with those of other
similar States or those States seen as leaders in the field.

Other problems were related to information which was not available to help program ad­
ministrators design , manage, and evaluate programs. These include the inability to identify
the number of individuals served and to provide information in specific areas such as IV drug
use, relapse rates , homeless persons , funding sources, and private sector programs.

Beyond the problems at the State level , almost one- half of the local providers visited reported
problems due to lack of data; 54 percent said there were additional data they would like to
have. One provider said, " It would be interesting to know where similar agencies are , we
have nothing to compare ourselves to.
State Program Administrators and Providers also Experience a Variety of Problems in Data
Collection

Some States offcials felt that the collection of data on private sector programs was important
but difficult to collect. They felt that the collection of this data should be par of the State
licensing or certification process so that this gap is filled.

Another problem is the difficulty in getting uniform definitions of elements. One person said
   s difficult to get uniform definitions from provider to provider throughout the State , how
could we expect uniform national definitions?" In spite of this, most agreed that the stand­
ardization of definitions is essential.

Respondents also discussed the problem with the automation of data collection. While almost
all States have parially or fully automated data collection , many providers are not automated.
In most States, providers and State agencies lack compatible systems; data are usually sub­
mitted on hard copy to be entered at the State level.

Lastly, a few States raised the issue of quality and felt not enough is being done in this area.
This is paricularly important because only through adequate quality control can accurate data
be assured.





State Program Administrators Report that Unique Client Identifiers are Needed to Assure
an Un duplicated Count

Confidentiality concerns about client identification make it difficult to get an unduplicated
count , thus making it impossible to track a patient throughout State programs. However, 60
percent of the States indicated they can obtain unduplicated counts. In most of these States a
client identifier is assigned to each client when he/she is admitted to a facility. Thus, an un-
duplicated count can be achieved as long as the client continues to be treated at a particular
facility. Admission to a new facility, however, would give the client a new identifying num­
ber.

Several States, however, did discuss their use of a unique State client identifier. This iden­
tification number is made up of coded numbers and letters derived from certain unchanging
characteristics of a client such as the first letter of the first name or the date of birth and
mother s maiden name. A client does not need to memorize this number. In some States each
facility in the State knows the code for constructing this number and can recreate the number
based on the client's unchanging characteristics. In other States the State itself constructs the
numbers upon collection of the individual client data. This ensures an unduplicated count for
all facilties within a State.

Most respondents mentioned the importance of the unique client identifier for effective coor­
dination of service delivery among agencies and monitoring of service outcomes. Further, out­
come data, which some res pondents said is frequently unavailable , is difficult to obtain
without a unique statewide identifier.

Providers Do Not Always Receive Reports Based on the Data They Submit

Although some providers feel that State and national data collection is helpful and 73 percent
get reports back from the States on the information they submit , only 19 percent said they get
national reports. Others feel that although they collect data for the State separate from their in­
ternal data collection , they never get anything useful back from the State and certainly not
from the Federal Government.

States Fund Data Collection at Low Levels

States fund data collection at low levels, despite encountering problems due to the lack of
data. Most respondents estimated that one percent or less of their total expenditures are spent
on data collection. Almost two- thirds of the State program administrators thought this was not
enough. Many had difficulty coming up with their estimates.

There were however, several State program administrators that said they spent a lot more than
1 percent and felt they were spending an appropriate amount. One State program ad­
ministrator estimated spending seven percent , another estimated 13 percent. These State
program administrators are satisfied with their own data collection systems and feel that their
own instrument would be appropriate for a national data set.


RECEPTIVITY TO A NATIONAL DATA SET

Most States See Value in Having a Uniform National Data Set

Eighty- five percent of the State substance abuse program administrators and 77 percent of the
State mental health program administrators see value in having a uniform national data set. In
contrast, only half of the providers see such value.

Over half the States feel the collection of minimum national data should be mandatory. Al­
most all say they do not like to have anything mandated but the only way this could work is if
everyone parcipates in a uniform fashion.


Virtually all States (86 percent) want the Federal Government to pay for the collection of the
data; nevertheless, half the States would be wiling to pay a share of the costs.

Key uses of uniform national data according to respondents include comparng one State to
another and providing information to. outside sources such as legislatures. One State said "
need nationally comparable data to answer questions for Government, legislature and the
press. " Other uses include allocation of funds, program management , reporting, research , and
                           , ", "      , "      , "
       , "




program planning. Others felt the data would be useful to evaluate the effectiveness of
programs.

Many States mentioned that there should be Federal leadership with a high participation by
the States in developing standards and definitions. Some also said there should be sufficient
lead time to implement the data collection system. Others mentioned the importance of techni­
cal assistance from the Federal Government, parcularly for small States. Still others sug­
gested a pilot program or test run before the new system gets underway. Additionally, several
States stressed the importance of a   minimum          number when selecting elements for a national
data set. One State said, " The key is minimum. " Another said, " In any national system there
should be core elements , but also enough flexibility and room for demonstration projects and
optional reporting elements.

States would like timely reports from the Federal Government in a useful format. One said
 Clear, standardized definitions are probably the single most important item in developing a
national data set, along with appropriate technical assistance. Rapid turnaround time is also
very important. "
                Another State said To be meaningful to States , the main thing is to make
output more current and timely. It doesn t help to have 2- year-old data. " These words were
echoed by many.



Prior and Present Data Sets Viewed       as Useful


Discussions with the States about prior and present data sets revealed that most State sub­
stance abuse respondents view CODAP as a useful form of national data collection. Sixty-
four percent of the States have a positive recollection of the value of CODAP.

Twelve substance abuse programs recommended some form of CODAP as the minimum data
elements to collect nationally. One said, " It was useful , well thought out , a significant mini­
mum system. " Another State mentioned Good for comparsons to other States, helped plan
treatment and strategies. " Stil others thought it was good information but contained too much
data and did not give feedback timely enough.

Forty percent of the States said that SADAP and NDATUS are useful. Four recommended
SADAP as minimum data elements and four recommended NDATUS. Some said it is all they
have to see what s going on nationally and to compare themselves with other States.
However, some felt SADAP data is not too reliable since its categories are not the categories
they use. One said It addresses a different structure than we have.. .! find myself filling out
 unknown ' or ' not applicable ' too much of the time. " Another State mentioned a validity
problem and said It is too general , hard to cross tab, hard to make decisions based on it.

Most State mental health respondents feel that MHSIP is a useful form of national data collec­
tion. Most States are familiar with MHSIP and are complimentar of the task force working
on its development. However, other than a few basic demographic data elements , States are
not collecting MHSIP data. One State commented We pay attention to it , but we don t use
it. " Another said, " It gives a good frame ofreference.
                                                                        , "




It is important to note that MHSIP is a program to establish data standards for mental health
decision support systems. It presently has data elements for client data, event data , and human
resources data. It was the client data that people were most familiar with , although some
thought event data was important to maintain. The MHSIP recommends minimum data ele­
ments with a specific strcture , but at this time does not have a standard data collection docu­
ment. Twenty- five mental health programs and three substance abuse programs recommend
MHSIP as minimum data elements to collect nationally. One State said If we can get all 50
States to agree and use the same definitions, then it wil be a very good system.

National Minimum Data Elements Recommended by State Program Administrators

Many State program administrators recommend, should a national minimum data set be con­
strcted, the use of MHSIP data elements for mental health programs and CODAP or some
varation for drg and alcohol programs.

The specific elements most often recommended by the State substance abuse program ad­
ministrators include demographics, modality or serVices provided, type of substance , and
route of administration. Those most often recommended by the mental health program ad­
ministrators include demographics, services provided, clients served, and diagnosis.
                                       CONCLUSIONS



This report was conducted to provide ADAMHA and other departmental decision-makers with
information on the alcohol , drg abuse , and mental health data collection activities of the
States and State receptivity to the idea of a national minimum data set. We can conclude from
the findings of this report that the data collected by the States, although extensive, are not com­
parable and cannot currently be aggregated into reliable national statistics. We can also con­
clude that the States experience this as a problem and are receptive to the idea of a truly
minimum   national data set.

However, the following key issues in data collection need to be resolved before a decision
could be made to proceed with a national minimum data set. Those issues include: the worth
of a national minimum data set to the Federal Government , how and to what extent such a
data collection should be federally funded , whether it should be voluntary or mandatory, how
consensus on data elements and definitions should be reached, and how best to utilize the data
once it is collected.


COMMENTS ON THE DRAFT REPORT

The report was shared with the Assistant Secretar for Health and the Alcohol , Drug Abuse,
and Mental Health Administration , which includes the National Institute on Alcohol Abuse
and Alcoholism , the National Institute of Drug Abuse, and the National Institute of Mental
Health. The report was favorably received by these entities and no changes were recom­
mended.
